                 OFFICE OF INSPECTOR GENERAL

                                                         Catalyst for Improving the Environment



     Audit Report




               Association of Metropolitan Sewerage
               Agencies - Costs Claimed Under EPA
               Cooperative Agreements X827577-01,
               X828302-01, and X829595-01

               Report Number 2004-4-00038


               August 31, 2004




This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The report represents the opinion of the OIG,
and findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.
Report Contributors:                     Keith Reichard
                                         Stephanie Oglesby




Abbreviations
CFR             Code of Federal Regulations
EPA             Environmental Protection Agency
OIG             Office of Inspector General
OMB             Office of Management and Budget
Recipient       Association of Metropolitan Sewerage Agencies
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                         August 31, 2004

MEMORANDUM

SUBJECT:       Report No. 2004-4-00038
               Association of Metropolitan Sewerage Agencies - Costs Claimed Under EPA
               Cooperative Agreements X827577-01, X828302-01, and X829595-01

               /s/ Michael A. Rickey
FROM:          Michael A. Rickey
               Director, Assistance Agreement Audits

TO:            Richard Kuhlman
               Director, Grants Administration Division


We have examined the outlays reported by the Association of Metropolitan Sewerage Agencies
(recipient) under cooperative agreements X827577-01, X828302-01, and X829595-01 with the
Environmental Protection Agency (EPA). The cooperative agreements were authorized under
Section 104 of the Clean Water Act.

We have questioned $681,413 of unallowable reported outlays because the recipient could not
demonstrate that it performed a sufficient analysis for the procurement of contractual services, as
required under Title 40 CFR 30.45.

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. The report represents the opinion of
the OIG, and findings contained in this report do not necessarily represent the final EPA position.
The OIG has no objection to the release of this report to any member of the public upon request.

On April 26, 2004, we issued a draft report to the recipient for comment, and received comments
on June 9, 2004. The recipient also submitted additional supporting documentation on June 28,
2004. As a result of the recipient’s response and the additional documentation provided, all
questioned outlays were resolved except for the questioned contractual outlays under cooperative
agreement X829595-01. In addition, we modified the Report of Non-Compliance.

We have included a portion of the recipient’s response to the draft report in Appendix B (we did
not include the recipient’s attachments or additional documentation but they are available upon
request). The response is also summarized after each finding with our comments. Because the
final report was revised, some comments in the recipient’s response pertain to issues that are no
longer in the report.

Action Required

In accordance with EPA Manual 2750, the action official is required to provide this office with a
proposed management decision specifying the Agency’s position on all findings and
recommendations in this report. Separate recommendations are included in the Independent
Auditor’s Report - Cooperative Agreement No. X829595-01 and the Report of Non-Compliance.
The draft management decision is due within 120 days of the date of this transmittal
memorandum.

If you have questions concerning this report, please contact Keith Reichard, Assignment
Manager, at (312) 886-3045.

Attachment
                                   Table of Contents
Summary Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Independent Auditor’s Report -
Cooperative Agreement No. X827577-01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Independent Auditor’s Report -
Cooperative Agreement No. X828302-01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Independent Auditor’s Report -
Cooperative Agreement No. X829595-01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

Report of Non-Compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



 Appendices
         A         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         B         Recipient’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

         C         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




                                                              i
                         Summary Results of Audit
The Association of Metropolitan Sewerage Agencies’ (recipient) financial management and
procurement systems need to be improved to fully comply with the requirements of Title
40 Code of Federal Regulations (CFR) Part 30 and Office of Management and Budget (OMB)
Circular A-122.

The recipient needs to: (1) prepare written accounting procedures to identify and allocate direct
and indirect costs to projects, (2) ensure cash draws are limited to the actual and immediate need,
(3) perform acceptable cost or pricing analyses for all procurement actions, (4) incorporate
required contract provisions into all contracts, (5) submit financial and performance reports as
required by regulation, and (6) submit an acceptable indirect cost proposal.

We questioned unallowable contract costs of $681,413 because the recipient did not perform an
adequate analysis to support that the price paid was reasonable. The questioned outlay is
summarized below and detailed in the Independent Auditor’s Reports.


                     Cooperative       Reported       Questioned    Report
                    Agreement No.       Outlays        Outlays      Page

                    X827577-01          $107,067              $0       5

                    X828302-01          $293,416              $0       7

                    X829595-01          $759,033        $681,413       9

                       Totals          $1,159,516       $681,413




                                                  1
2
                                        Background
EPA awarded three cooperative agreements (agreements) to the Association of Metropolitan
Sewerage Agencies (recipient) under Section 104 of the Clean Water Act. The following table
provides some basic information about the authorized project period and the funds awarded
under each of the agreements.


        Cooperative      Award        EPA          Recipient        Total             Project
       Agreement No.      Date        Share         Share          Awarded            Period

        X827577-01      08/19/99     $115,000*         $0           $115,000    09/01/99 - 01/02/02

        X828302-01      08/09/00     $300,000*         $0           $300,000    09/01/00 - 08/31/03

        X829595-01      02/07/02    $1,110,000     $35,717**      $1,145,717    11/30/01 - 09/30/06


   *    The EPA share is 100 percent of total costs.
  **    The cooperative agreement included a 3-percent match from the recipient. Thus, the recipient’s
        share should have been $34,372 instead of $35,717.

Cooperative Agreement No. X827577-01: This agreement was for the recipient to measure the
effectiveness of using publicly owned treatment works’ source control and pollution prevention
programs to achieve compliance with anticipated mercury water quality standards and permit
limits.

Cooperative Agreement No. X828302-01: This agreement was for the recipient to assist water
and wastewater utilities in implementing asset management programs. The project involves the
development and presentation of an industry best management practices handbook and associated
checklist, training materials, and workshops. The purpose for the project was to develop a
framework under which water and wastewater utilities can respond effectively to the sweeping
changes found in the Governmental Accounting Standards Board Statement 34.

Cooperative Agreement No. X829595-01: This agreement was for the recipient to develop a
vulnerability assessment tool for municipal wastewater treatment facilities. The tool would assist
the wastewater treatment plant operators in assessing the vulnerability of their collection system
and treatment facility and in determining what safeguards need to be implemented in order to
protect the facilities from potential terrorist attacks. The tools developed under this project
would be transferable to other municipal and private wastewater facilities.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

   Reported Outlays:            Program expenses or disbursements identified by the recipient on
                                the Financial Status Report (Standard Form 269) or the Federal
                                Cash Transactions Reports (Standard Form 272A).


                                                   3
Unallowable Costs:   Outlays that are: (1) contrary to a provision of a law, regulation,
                     agreement, or other documents governing the expenditure of funds;
                     (2) not supported by adequate documentation; or (3) not approved
                     by a responsible agency official.




                                       4
                 Independent Auditor’s Report
             Cooperative Agreement No. X827577-01
We have examined the total outlays reported by the Association of Metropolitan Sewerage
Agencies (recipient) under the EPA cooperative agreement, as shown below:


            Cooperative                          Financial Status Report
            Agreement                Date                Period         Federal Share of
               No.                 Submitted             Ending         Outlays Reported

             X827577-01              5/30/02             1/2/02             $107,067


The recipient certified that the outlays reported on the Financial Status Report, Standard Form
269A, were correct and for the purposes set forth in the agreement. Our responsibility was to
express an opinion on the reported outlays based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We examined, on a test
basis, evidence supporting the reported outlays, and performed such other procedures as we
considered necessary in the circumstances (see Appendix A for details). We believe that our
examination provides a reasonable basis for our opinion.

In our opinion, the reported outlays on the Financial Status Report present fairly, in all material
respects, the allowable outlays incurred in accordance with the criteria set forth in the
agreements.


                                                      Keith Reichard
                                                      Keith Reichard
                                                      Assignment Manager
                                                      Field Work End: February 27, 2004




                                                 5
6
                 Independent Auditor’s Report
             Cooperative Agreement No. X828302-01
We have examined the total outlays reported by the Association of Metropolitan Sewerage
Agencies (recipient) under the EPA cooperative agreement (agreement), as shown below:


            Cooperative                          Financial Status Report
            Agreement                Date                Period         Federal Share of
               No.                 Submitted             Ending         Outlays Reported

             X828302-01             11/12/03             8/31/03             $293,416


The recipient certified that the outlays reported on the final Financial Status Report, Standard
Form 269A, were correct and for the purposes set forth in the agreement. The preparation and
certification of each report was the responsibility of the recipient. Our responsibility was to
express an opinion on the reported outlays based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We examined, on a test
basis, evidence supporting the reported outlays, and performed such other procedures as we
considered necessary in the circumstances (see Appendix A for details). We believe that our
examination provides a reasonable basis for our opinion.

In our opinion, the reported outlays on the final Financial Status Report present fairly, in all
material respects, the allowable outlays incurred in accordance with the criteria set forth in the
agreements.


                                                      Keith Reichard
                                                      Keith Reichard
                                                      Assignment Manager
                                                      Field Work End: February 27, 2004




                                                 7
8
                 Independent Auditor’s Report
             Cooperative Agreement No. X829595-01
We have examined the total outlays reported by the Association of Metropolitan Sewerage
Agencies (recipient) under the EPA cooperative agreement, as shown below:


            Cooperative                  Federal Cash Transactions Reports
            Agreement               Date                Period        Federal Share of
               No.                Submitted             Ending        Outlays Reported

                                    7/22/02             6/30/02            $184,396

            X829595-01              8/11/03            12/31/02            $301,701

                                    8/11/03             6/30/03            $272,936

               Total                                                       $759,033


The recipient certified that the outlays reported on the Federal Cash Transactions Reports,
Standard Form 272A, were correct and for the purposes set forth in the agreement. Our
responsibility was to express an opinion on the reported outlays based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We examined, on a test
basis, evidence supporting the reported outlays, and performed such other procedures as we
considered necessary in the circumstances (see Appendix A for details). We believe that our
examination provides a reasonable basis for our opinion.

As discussed in the Report of Non-Compliance, the recipient did not fully comply with Federal
requirements when procuring contractual services. As a result, we questioned unallowable
reported outlays of $681,413.

In our opinion, because of the effects of the matters discussed in the preceding paragraph, the
reported outlays on the Federal Cash Transactions Reports do not present fairly, in all material
respects, the allowable outlays incurred in accordance with the terms and conditions of the
agreements and applicable EPA regulations. Details of our audit are included in the Schedule of
Reported Outlays and Results of Audit for Cooperative Agreement X829595-01 that follows.


                                                    Keith Reichard
                                                    Keith Reichard
                                                    Assignment Manager
                                                    Field Work End: February 27, 2004



                                                9
              Schedule of Reported Outlays and Results of Audit for
               Cooperative Agreement X829595-01 Awarded to the
                 Association of Metropolitan Sewerage Agencies


                                                              Reported      Questioned
                               Cost Element                    Outlays       Outlays          Note

                      Personnel                                 $34,136                 $0

                      Travel                                        $102                $0

                      Supplies                                  $18,984                 $0

                      Contractual                              $681,413         $681,413        1

                      Other                                     $24,398                 $0

                      Total                                    $759,033         $681,413        2



Note 1:           We questioned contract costs of $681,413 because the recipient’s price analysis
                  for this sole source contract was not sufficient to show that the contract costs paid
                  were reasonable and allowable. Title 40 CFR 30.45 states:

                      Some form of cost or price analysis shall be made and documented ...
                      with every procurement action. Price analysis may be accomplished
                      in various ways, including the comparison of price quotations
                      submitted, market prices and other indicia, together with discounts.
                      Cost analysis is the review and evaluation of each element of cost to
                      determine resonableness, allocability and allowability.

                  The recipient compared the labor rates for PA Consulting with rates from similar
                  consulting firms and concluded that the rates were reasonable. This analysis is
                  both flawed and contrary to the requirements in the regulations for price analysis.

                  The recipient awarded the contract to PA Consulting without competition. None
                  of the firms used for the comparison submitted price quotations. Therefore, it was
                  not possible to compare price quotations. Further, the sole source justification
                  stated that PA Consulting had unique experience and capabilities. It would be
                  inconsistent to compare the PA Consulting’s rates to consultants that did not have
                  similar experience and capabilities. Also, there was no evidence provided that the
                  prices used for comparison were “market prices”1. Finally, the contract was a firm


          1
           EPA does not define “market prices” in 40 CFR Part 30. However, the Government defines “market
prices” at 48 CFR 2.101(b) as current prices that are established in the course of ordinary trade between buyers and
sellers free to bargain and that can be substantiated through competition or from sources independent of the offerors.

                                                         10
                 fixed price contract, not a labor hour type of contract. Reviewing labor rates
                 without examining the quantity of hours proposed for each labor category would
                 not give the total price needed for comparison purposes. In addition, the
                 individual labor rates for PA Consulting were generally higher than the
                 comparative rates shown for the other consultants. Without including the quantity
                 of hours, the analysis in meaningless. According to recent EPA guidance,
                 Purchasing Supplies, Equipment, and Services Under EPA Grants (available on
                 the EPA website), noncompetitive proposals require cost reviews.

Note 2:          The cooperative agreement required a 3-percent cost share. Since the recipient is
                 not required to identify its 3-percent cost share on the Federal Cash Transaction
                 Reports, the total reported is only the Federal share. In response to the draft report
                 the recipient provided documentation to support in-kind matching costs exceeding
                 the required match of $23,475 [($759,033 ÷ 97%) - $759,033].

Recipient’s Comments

          For cooperative agreement X829595-01, the recipient also said that it performed an
          informal price analysis, and a detailed review of the contract’s proposed contract costs to
          ensure that the costs were allocable and allowable. Based on the price/cost analysis the
          recipient believes that the contractor’s proposed costs were reasonable.

Auditor’s Response

          As stated in the finding, the price analysis performed was not sufficient to meet the
          requirement of Federal rules and did not support that the contract price was reasonable.

Recommendation Number 1

          We recommend that EPA recover the questioned Federal share of $681,413.




                                                  11
12
                         Report of Non-Compliance
              (Association of Metropolitan Sewerage Agencies)

In order to comply with the provisions of Title 40 CFR Part 30, the Association of Metropolitan
Sewerage Agencies (recipient) needs to: (1) prepare written accounting procedures to identify
and allocate direct and indirect costs to projects, (2) ensure cash draws are limited to the actual
and immediate need, (3) perform acceptable cost or pricing analyses for all procurement actions,
(4) incorporate required contract provisions into all contracts, (5) submit financial and
performance reports as required by regulation, and (6) submit an acceptable indirect cost
proposal.

       Incomplete Written Accounting Procedures

       As required by Title 40 CFR 30.21, the recipient needs to draft written procedures for
       identifying direct and indirect costs, and the basis for allocating such costs to projects.
       These procedures would provide a consistent basis for the treatment of direct and indirect
       costs and serve as the basis for preparing an indirect cost proposal. The recipient also
       needs to develop written procedures to minimize the time elapsing between the transfer of
       funds to the recipient and the redemption of payment. The lack of written procedures
       contributed to the recipient drawing EPA funds in advance of actual cash needs as
       discussed below.

       Recipient’s Comments

       The recipient’s Controller told us that procedures for identifying direct and indirect costs
       was being drafted and would be submitted to EPA along with the indirect cost proposal.
       The written procedure for drawing grant funds has already been completed.

       Auditor’s Response

       Except for the written procedures for identifying direct and indirect costs, the recipient
       has developed written accounting procedures that comply with the provisions of Title
       40 CFR 30.21.

       Recommendation Number 2

       We recommend that EPA ensure the recipient’s indirect cost rate proposal includes
       information for identifying direct and indirect costs, and an explanation of how these
       costs are accounted for in the accounting system.




                                                13
Inappropriate Cash Draws

Contrary to Title 40 CFR 30.22 (b), the recipient withdrew EPA funds in advance of the
actual cash needed. This practice occurred because the recipient lacked written
procedures to minimize the time elapsing between the transfer of Federal funds and the
redemption of payment. Drawing funds in excess of need could result in an Federal
overpayment.

We reviewed 18 cash draws paid by EPA and found that the recipient did not disburse
funds timely for 15 of those cash draws. The recipient generally disbursed funds
anywhere from 9 to 43 days after the Federal funds were received. To comply with
Federal regulations, the recipient needs to minimize the time elapsing between the draws
and expenditure of the Federal funds.

Recipient’s Comments

The recipient has prepared written procedures to draw EPA funds on a reimbursement
basis only. Request for reimbursement will be made on a monthly basis no later than
30 days after the end of the month. This will ensure that there are no excessive draws or
overpayments made by the Federal government.

Auditor’s Response

If followed, the recipient’s new procedures will eliminate the problem of drawing grant
funds in excess of the actual cash needed.

Lack of Cost or Price Analysis

The recipient’s price analysis for a sole source contract was not sufficient to show that the
contract costs paid were reasonable and allowable, as required by Title 40 CFR 30.45.
Failure to fully comply with this regulation can result in excessive contract costs, and the
disallowance of the costs under Federal agreements.

Refer to Note 1 - Schedule of Reported Outlays and Results of Audit for Cooperative
Agreement X829595-01 on pages 10 and 11 for additional detail, the recipient’s
comments, and our recommendations.

Incomplete Contract Provisions

The recipient did not ensure all contracts awarded under the cooperative agreements
contained the required contract provisions cited in Title 40 CFR 30.48. For instance,
none of the contracts awarded included the provisions of Title 40 CFR 30.48(d), which
provides that the recipient, EPA, and the Comptroller General of the United States shall
have access to any books, documents, papers, and records of the contractor that are
directly pertinent to a specific program. The regulation also states that all contracts shall


                                         14
contain the procurement provisions of OMB Circular A-110, Appendix A, as applicable.
Further, none of the contracts we reviewed contained the (1) Equal Employment
Opportunity provision; (2) Byrd Anti-Lobbying Amendment provision; and (3)
Debarment and Suspension provision cited in the regulation. The recipient needs to
amend the existing contracts to insert the required contract provisions, and include these
required provisions when awarding any new contracts.

Recipient’s Comments

The recipient agreed with this finding. The contract under cooperative agreement
X829595-01 is still active and has a contract addendum that amended the contract
agreement to include all of the necessary contract provisions. In addition, the recipient
has documented its procurement procedures in accordance with Federal requirements, and
these procedures provide for the inclusion of the provisions.

Auditor’s Response

The recipient provided us the amended contract agreement under cooperative agreement
X829595-01. The contract still did not contain all the required contract provisions
specified in Title 40 CFR 30.48 and Appendix to Part 30.

Recommendation Number 3

We recommend that EPA require the recipient to include in all new contracts the
provisions required by Title 40 CFR 30.48 and the Appendix to Title 40 CFR Part 30, and
amend its existing contract under cooperative agreement X829595-01 to include all the
required contract provisions, including:

       a. Conditions that allow for administrative, contractual, or legal remedies in
          instances in which a contractor violates or breaches the contract terms, and
          provide for such remedial actions as may be appropriate.

       b. Termination by the recipient, including the manner by which termination shall
          be effected and the basis for settlement. In addition, such contracts shall
          describe conditions under which the contract may be terminated for default as
          well as conditions where the contract may be terminated because of
          circumstances beyond the control of the contractor.

       c. Conditions to comply with all applicable standards, orders, or regulations
          issued pursuant to the Clean Air Act and the Federal Water Pollution Control
          Act.

       d. Conditions to comply with the Equal Employment Opportunity provisions.




                                        15
Untimely Financial Reports

For cooperative agreement X829595-01, the recipient did not submit any of its Report of
Federal Cash Transactions (SF-272) within 15 calendar-days as required by Title 40 CFR
30.52. The SF-272 forms were submitted anywhere from 7 to 208 days late. As a result,
EPA may not have sufficient information to make an informed assessment of whether the
unexpended funds were adequate to complete all work.

Recipient’s Comments

In a July 26, 2004 discussion with the recipient, the recipient agreed that the financial
reports were not always submitted timely, and will begin submitting timely financial
reports for periods beginning in June 2004.

Recommendation Number 4

We recommend that EPA ensure that the recipient submit financial reports timely and in
accordance with EPA regulations. Should the recipient fail to submit timely financial
reports, we recommend that EPA take action, including suspending payment under the
agreements, until the financial reports are received.

Lack of Performance Reports

The recipient did not submit all the required performance reports specified by the
cooperative agreements. All three cooperative agreements required the recipient to
submit quarterly performance reports. During the period covered by our audit,
cooperative agreement X827577-01 required the recipient to submit nine performance
reports, yet none were prepared. Under cooperative agreement X828302-01, the recipient
was required to submit 11 performance reports, and 3 were provided to EPA. Finally,
cooperative agreement X829595-01 required the recipient to submit six performance
reports, and only two were provided to EPA. As illustrated, the recipient had only
submitted 5 of the required 26 performance reports. Consequently, EPA may not have
sufficient information to make an assessment of the recipient’s performance in meeting
the agreements’ objectives, or determine whether the unexpended funds were adequate to
complete all work required under the three cooperative agreements.

Recipient’s Comments

In a July 26, 2004, discussion with the recipient, the recipient stated that although formal
performance reports were not always submitted, the EPA project officers were always
provided timely information on the project via e-mail and telephone. Formal project
reports meeting Federal requirements would be provided in the future.




                                         16
Auditor’s Response

E-mail and telephone discussions do not meet the regulatory requirements for
performance reports. Written performance reports require specific information and
provide a permanent record of grant performance. Title 40 CFR 30.51 states that
performance reports shall contain brief information on each of the following: (1) a
comparison of actual accomplishments with the goals and objectives established for the
period; (2) reasons why established goals were not met, if appropriate; and (3) other
pertinent information, including analysis and explanation of cost overruns or high unit
costs. A permanent record of this type of information ensures continuity in the event that
the project officer is reassigned, retires, or leaves the Federal government. Informal
information, such as e-mails and telephone conversations, may not cover all the necessary
topics required by regulation and could easily be lost. The information required in
performance reports may be needed to satisfy questions by senior EPA managers,
Congress, or the public.

Recommendation Number 5

We recommend that EPA require the recipient to submit performance reports for any
current grant or cooperative agreement in accordance with EPA regulations and the terms
and conditions of the award. Should the recipient fail to submit timely performance
reports, we recommend that EPA take action, including suspending payment under the
agreements, until the reports are received.

Unsupported Indirect Cost Rates

EPA authorized indirect costs of $20,433 under amendment number 3 to cooperative
agreement X829595-01. Although authorized, the recipient has not submitted the
required indirect cost rate proposal to EPA, and has not reported any outlays for indirect
costs as of August 11, 2003.

In response to the draft report, the recipient provided the OIG a copy of an indirect cost
proposal that it planned to submitted to EPA no later than June 30, 2004. The proposal
was based on 2003 audited costs. However, according to the recipient, the proposed
indirect administrative labor costs included in the proposal were based on a conservative
estimate of how much time each person spent on indirect activities. The actual indirect
administrative labor costs could not be determined because employees did not identify
indirect administrative time on their time sheets until May 2004. Consequently, prior to
May 2004, the recipient’s labor distribution system was not adequately structured to
enable the recipient to develop an acceptable indirect cost rate proposal. The proposed
indirect labor costs did not comply with the provisions of OMB Circular A-122,
Attachment B, paragraph 7(m)(1), which requires the distribution of salaries and wages to
awards be supported by personnel activity reports.




                                        17
Recipient’s Comments and Auditor’s Response

This finding has been revised based the recipient’s comments to the draft report.

Recommendation Number 6

We recommend that EPA rescind amendment 3 to cooperative agreement X829595-01,
and not allow any indirect costs until the recipient can develop an acceptable indirect cost
rate proposal based on actual labor costs instead of estimated costs.




                                         18
                                                                                    Appendix A

                           Scope and Methodology
We performed our examination in accordance with generally accepted government auditing
standards, and the attestation standards established for the United States by the American
Institute of Certified Public Accountants. We also followed the guidelines and procedures
established in the “Office of Inspector General Project Management Handbook,” dated
November 5, 2002.

We conducted this examination to express an opinion on the reported outlays, and determine
whether the recipient was managing its EPA cooperative agreements in accordance with
applicable requirements. To meet these objectives, we asked the following questions:

       1.      Is the recipient’s accounting system adequate to account for cooperative
               agreement funds in accordance with 40 CFR 30.21?

       2.      Does the recipient maintain an adequate labor distribution system that conforms to
               requirements of OMB Circular A-122?

       3.      Is the recipient properly drawing down cooperative agreement funds in accordance
               with the Cash Management Improvement Act?

       4.      Do the recipient’s procurement procedures for contractual services comply with
               40 CFR 30.40 to 30.48?

       5.      Is the recipient complying with its reporting requirements under 40 CFR 30.51
               and 30.52?

       6.      Are the costs reported under the cooperative agreements adequately supported and
               eligible for reimbursement under the terms and conditions of the cooperative
               agreements, OMB Circular A-122, and applicable regulations?

       7.      Did the recipient implement corrective actions in response to issues identified
               during a previous on-site review? If so, were they effective?

In conducting our examination, we reviewed the project files and obtained the necessary
cooperative agreement information. We interviewed recipient personnel to obtain an
understanding of the accounting system and the applicable internal controls as they related to the
reported costs. We obtained and reviewed a single audit report and an on-site report prepared by
EPA to determine whether any reportable conditions and recommendations were addressed in
those reports.



                                                19
We reviewed management’s internal controls and procedures specifically related to our
objectives. Our examination included reviewing the recipient’s compliance with OMB Circular
A-122, 40 CFR Part 30, and the terms and conditions of the agreements. We also examined the
reported costs on a test basis to determine whether the costs were adequately supported and
eligible for reimbursement under the terms and conditions of the agreements and Federal
regulations. We conducted our field work from October 7, 2003, through February 27, 2004.

After gaining an understanding of the recipient’s financial management system, we reconciled
the reported costs for each cooperative agreement with the recipient’s general ledger. For all
other direct costs reported under each cooperative agreement, we tested transactions on a
judgmental basis.




                                               20
                                                                                                      Appendix B
                                                            Recipient’s Response

                                                                                                Association of
President
William B. Schatz
                                                                                                Metropolitan
General Counsel                                                                                 Sewerage Agencies
Northeast Ohio Regional
 Sewer District
Cleveland, OH

Vice President
Donnie R. Wheeler
General Manager
Hampton Roads Sanitation          June 9, 2004
 District
Virginia Beach, VA

Treasurer
Dick Champion, Jr.
Director
                                  Via Electronic Mail and Overnight Fedex
Water Pollution Control
 Department
Independence, MO                  Keith Reichard
Secretary                         Stephanie Oglesby
Christopher M. Westhoff
Assistant City Attorney           EPA-OIG
City of Los Angeles
 Department of Public Works
                                  901 North Fifth Street
Los Angeles, CA                   Kansas City, KS 66101
Executive Director
Ken Kirk
                                  RE: Draft Audit Report for Association of Metropolitan Sewerage Agencies –
                                  Costs Claimed Under EPA Cooperative Agreements X827577-01, X828302-01,
                                  and X829595-01

                                  Dear Mr. Reichard and Ms. Oglesby:

                                  Attached please find the Association of Metropolitan Sewerage Agencies
                                  (AMSA) response to the April 26, 2004 draft report prepared by the United
                                  States Environmental Protection Agency’s Office of the Inspector General (OIG).
                                  AMSA’s Response to EPA Office of Inspector General (OIG) Draft Report
                                  (attached) addresses the factual accuracy of the information in the OIG draft
                                  report.

                                  I believe the attached documentation confirms that we have effectively
                                  responded to every item in the Results of Audit, Recommendations, Independent
                                  Auditor’s Report, and Report of Non-Compliance. AMSA now has the
                                  procedures and systems in place to ensure our current and future compliance with
                                  all Federal regulations.

                                  AMSA appreciates the opportunity to work collaboratively with the Federal
                                  Government on projects which are of critical importance to the clean water
                                  community. We are proud of the significant contributions we have made in
                                  executing each of the referenced agreements, and the important deliverables that
                                  have been produced.


1816 Jefferson Place, NW, Washington, DC 20036-2505 • 202.833.2672 • 202.833.4657 FAX
info@amsa-cleanwater.org • http://www.amsa-cleanwater.org                          21
June 9, 2004
Page 2

I trust that the attached response will confirm AMSA’s 100% compliance with every issue
identified in the draft report. Should you have any questions, please do not hesitate to contact
me.

Sincerely,



Ken Kirk
Executive Director

Enclosure


ecc:         Richard T. Kuhlman, EPA
             Curt Baranowski, EPA
             Betty Utterback, EPA
             Karen Bass, EPA
             Marguerite Pridgen, EPA
             Stephen Allbee, EPA
             Michael Mason, EPA
             Brian Frazer, EPA
             Michael A. Rickey, EPA




                                              22
     Response to EPA Office of Inspector General (OIG) Draft Report

Response to Results of Audit/Report of Non-Compliance:

1. Inadequate Labor Distribution System: The recipient’s financial management system was
   inadequate in that the recipient did not maintain an adequate labor distribution system required
   by OMB Circular A-122, and separate its personnel costs in the general ledger by project or grant.

   In January 2003, AMSA established a process that requires all employees to complete a personnel
   activity report/timesheet twice a month (the timesheet period coincides with AMSA’s pay periods). The
   timesheet reflects the actual (after-the-fact) accounting of each employee’s total activity for each pay
   period. Timesheets are signed consistent with the requirements of Circular A-122 and also account for
   total hours worked and leave taken. A copy of AMSA’s timesheet is attached (see Attachment A, AMSA
   Personnel Activity Report). In February 2004, AMSA began separating out personnel costs in the
   general ledger by program (Grants, Technical Action Fund, etc.). Because timesheet procedures have
   been in place since January 2003, AMSA was able to go back to the beginning of fiscal year 2004
   (October 2003) and do a journal entry to allocate personnel costs by program for the entire year.
   Currently, a journal entry is done monthly to record personnel costs in the general ledger based on the
   allocation of time to each program per the employee timesheets. This allows AMSA to properly record
   labor costs to cost objectives per the requirements of OMB Circular A-122, Attachment A, as required
   by 40 CFR 30.27 and to meet the requirements of an adequate financial management system per 40 CFR
   30.21.

2. Inadequate Accounting of Membership, Lobbying, and Public Outreach Activities: The recipient’s
   financial management system was inadequate in that the recipient did not identify and accumulate
   the costs for all direct activities, such as membership support, lobbying, and public outreach
   required by Circular A-122.

   AMSA did identify and accumulate the costs for all direct activities as required by Circular A-122. At
   year end, AMSA allocated all costs as either Direct (AMSA Programs and Membership), or
   Administrative (indirect costs). Activities such as membership support, lobbying and public outreach
   were all classified as direct costs. This information is shown in AMSA’s audited financial statements.
   AMSA’s timesheet now includes additional programs to support the major functions of the organization
   (see Attachment A, AMSA Personnel Activity Report). These programs are: Member Services (includes
   all services and information to members such as member development and retention, marketing,
   maintenance of membership rolls, publications, web-site, and meetings and conferences); Government
   Affairs (includes all legislative and regulatory work and communications and public affairs);
   Administrative (includes accounting and building administration functions); Grants (each grant is listed
   separately – includes all project management activities); Technical Action Fund (TAF) Projects
   (includes all project management activities and lobbying costs); Funding Task Force (includes all
   project management activities ); Leadership Center (includes all project management activities); Water
   Infrastructure Network (WIN) (includes all project management activities); and National Biosolids
   Partnership (includes all project management activities).




                                                  23
3. Unsupported Indirect Cost Rates: The recipient’s financial management system was inadequate in
   that the recipient did not prepare or submit indirect cost rate proposals required by OMB Circular
   A-122 and cooperative agreement X829595-01.

   AMSA’s financial management structure is adequate to allow AMSA to develop an indirect cost rate
   proposal. AMSA’s Controller has prepared an indirect cost rate proposal for the EPA. The indirect cost
   rate proposal summary page is attached (see Attachment B, Indirect Cost Rate Proposal). The
   documentation is being finalized and we anticipate that the proposal will be submitted to EPA no later
   than June 30, 2004. AMSA will notify the OIG when the indirect cost rate proposal is submitted to
   EPA.

   AMSA prepared an indirect cost rate proposal based on the Simplified Allocation Method discussed in
   EPA’s guide, Preparing Indirect Cost Rate Proposals for Grants and Contracts. Since AMSA’s major
   functions benefit from its indirect costs to approximately the same degree, it was possible to calculate an
   indirect cost rate based on separating the organizations costs for the base period as either direct or
   indirect. As discussed in EPA’s guide, AMSA allocated salaries between direct and indirect costs based
   on budgeted amounts. AMSA will begin requesting indirect costs from the EPA based on this new rate.
   We were advised by EPA that we should use this new rate upon submittal due to the extended period of
   time that may be required to review and act on indirect cost rate proposals. The new rate would result in
   additional indirect costs for cooperative agreement X829595-01, however, AMSA will only submit for
   reimbursement of indirect costs per the amount budgeted in the award.

4. Inadequate Written Accounting Procedures: The recipient’s financial management system was
   inadequate in that the recipient did not maintain adequate written accounting procedures required
   by 40 CFR 30.21.

   AMSA has documented its accounting procedures in accordance with Federal requirements (40 CFR
   30.21) to ensure that all costs are recorded accurately and on a timely basis. Please see Attachment C,
   Accounting Procedures for Federal Awards. These procedures document AMSA’s responsibility to
   determine if costs are reasonable, allocable and allowable and ensure that accounting records are
   supported by adequate source documentation. AMSA’s Accounting Procedures discuss identification of
   direct and indirect costs and include procedures to minimize the time elapsing between the transfer of
   funds to AMSA and the redemption of payment. The accounting procedures also require AMSA to
   provide an accurate, current and complete disclosure of the financial results of each Federally sponsored
   program. AMSA currently prepares a grant summary monthly on each Federal award. The referenced
   accounting procedures will be provided to the AMSA Board of Directors for approval at their next
   meeting in July 2004.

5. Inappropriate Cash Draws: The recipient’s financial management system was inadequate in that
   the recipient did not draw down on funds based on immediate cash need.

   AMSA has documented the process for draw down of funds in the Accounting Procedures for Federal
   Awards (see Attachment C). These procedures comply with Federal regulations and will minimize the
   time elapsing between the transfer of funds to AMSA and the redemption of payment. AMSA will draw
   down funds on a reimbursement basis only. Request for reimbursement of federal funds will be made




                                                   24
          on a monthly basis no later than 30 days after the end of the month. This will ensure that there are no
          excessive draws and no overpayments made by the Federal government to AMSA.

      6. Improper Procurement Practices including Undocumented or Insufficient Competition and Lack
         of Cost or Pricing Analysis: For cooperative agreements X827577-01 and X829595-01, the
         recipient did not demonstrate that it: (1) procured contractual services competitively in
         accordance with the requirements of 40 CFR 30.43 and 40 CFR 30.46 and (2) performed cost or
         price analyses for the procurement of contractual services as required under 40 CRF 30.45

           AMSA has documented its procurement procedures in accordance with Federal requirements (40 CFR
           30.40 through 40 CRF 30.48) to ensure that every procurement action is conducted in a manner to
           provide, to the maximum extent practical, open and free competition. AMSA will also perform and
           document cost and price analysis on every procurement action. Please see Attachment D, Procurement
           Standards for Federal Awards. AMSA will maintain all documentation (per the requirements of 40
           CFR 30.46) to support the basis for contractor selection and include the provisions required by 40 CFR
           30.48 and the Appendix to 40 CFR Part 30 in every contract.

           Cooperative Agreement X827577-01:

           For cooperative agreement X827577-01, AMSA did procure contractual services competitively in
           accordance with the requirements of 40 CFR 30.43 and 40 CFR 30.46. Also, AMSA did perform cost
           or price analyses for the procurement of contractual services as required under 40 CRF 30.45. Please
           see Attachment E, Mercury Grant Documentation (X827577-01), for a detailed listing of the
           procurement procedures followed. This documentation shows: 1) how the request for proposal was
           advertised; 2) how many proposals were received; 3) the ranking criteria for evaluating the proposals; 4)
           the basis for award cost or price; and 5) the basis for contractor selection. Some of the original
           documentation to support the data above can not be located. However, AMSA reconstructed
           information and the individuals involved, Mark Hoeke, Margie Nellor, and Guy Aydlett, will attest that
           the above procedures were followed. The below excerpt from the Mercury Grant Documentation
           outlines the procurement procedures followed:

                   May 26, 20001 – AMSA distributes Request for Proposals via e-mail to more than 40 firms and
                   requests that proposals be submitted by June 30, 2000.

                   June 29, 2000 – AMSA receives two proposals for the project. Larry Walker and Associates and
                   the Illinois Waste Management and Research Center/Board of Trustees of the University of
                   Illinois at Urbana-Champaign.

                   June 30, 2000 – July 10, 20002 – AMSA representatives including Mark Hoeke, AMSA, Margie
                   Nellor, Los Angeles County Sanitation District, and Guy Aydlett, Hampton Roads Sanitation
                   District reviewed and scored the two proposals according to an RFP Evaluation Sheet. While
                   AMSA does not have all of the completed review sheets, based on completed review sheets
                   obtained from Margie Nellor (included as part of attachment E) and verbal communication with
                   Mark Hoeke and Guy Aydlett, Larry Walker and Associates (the selected contractor) presented
1
    Email from Mark Hoeke, AMSA dated May 26, 2000 to 43 firms with copy to project committees.
2
    AMSA obtained copies of completed evaluation sheets from one of the proposal reviewers.


                                                              25
          a scope of work that was directly responsive to the RFP and demonstrated significant
          experience conducting similar projects. In comparison, the Illinois Waste Management and
          Research Center proposal provided no information on the expertise and experience of the
          principal investigator or other members of the project team. In addition, the proposed scope of
          work was limited to one treatment facility in Chicago and would not be representative of issues
          across the nation. For additional details, see attached, completed evaluation sheets (included
          as part of Attachment F). Please note that the evaluation sheets include a component evaluating
          the cost and budget of the project.

          July 11, 2000 – AMSA notifies Betsy Elzufon of Larry Walker and Associates that they have
          been selected to conduct the work. Wm D. Morgan, University of Illinois is notified that the
          Illinois Waste Management and Research Center proposal was not selected due in large part to
          its limited scope.

   Cooperative Agreement X829595-01:

   For cooperative agreement X829595-01, due to the unique combination of industry knowledge and
   security/software experience required by the project tasks, AMSA awarded the contract on a sole-source
   basis. AMSA did perform cost or price analyses for the procurement of contractual services as required
   per 40 CRF 30.45. AMSA provided EPA with a sole source justification document (this document was
   given to Stephanie Oglesby by Paula Dannenfeldt during the OIG audit) explaining in detail why the
   contract was not competitively bid. AMSA has updated the sole-source justification document to
   include information on the cost-price analysis (see Attachment F, Sole Source Justification for PA
   Consulting). As noted, AMSA had previously informally prepared cost/price analysis but it was not
   included in the formal documentation sent to EPA. Please note that the contract that AMSA has with
   the contractor (PA Consulting Group) under this award is still active and AMSA has executed a contract
   addendum with PA Consulting Group amending the contract to include all of the necessary contract
   provisions as required under 40 CFR 30.48 (see Attachment G, PA Consulting Group Amended
   Contract). A copy of the fully executed contract was sent to Stephanie Oglesby via fedex to arrive on
   6/10/04, see hardcopy Attachment 1, PA Consulting Group Executed Contract.

7. Incomplete Contract Provisions: For cooperative agreements X827577-01, X828302-01, and
   X829595-01, the recipient did not ensure that all contracts were complete and contained the
   required contract provisions cited in 40 CFR 30.48.

   AMSA has documented its procurement procedures in accordance with Federal requirements (40 CFR
   30.40 through 40 CRF 30.48). These procedures provide for the inclusion of the provisions required by
   40 CFR 30.48 and the Appendix to 40 CFR Part 30 in every contract (see Attachment D, Procurement
   Standards for Federal Awards). The contracts AMSA had under cooperative agreements X827577-01
   and X828302-01 did not contain all of the required contract provisions (please note that these
   cooperative agreements have concluded). The contract under X829595-01 is still active and as stated
   above, AMSA has executed a contract addendum with PA Consulting Group (the contractor under this
   award) amending the contract agreement to include all of the necessary contract provisions as required
   under 40 CFR 30.48 and the Appendix to Part 30 (see Attachment G, PA Consulting Group Amended
   Contract). As noted above, a copy of the fully executed contract was sent to Stephanie Oglesby via
   fedex to arrive on 6/10/04, see hardcopy Attachment 1.



                                                 26
8. Reporting Requirements Not Met – Untimely Financial Reports: For cooperative agreements
   X827577-01, X828302-01, and X829595-01, the recipient did not comply with all reporting
   requirements of the cooperative agreements.

   AMSA has documented in its accounting procedures the Federal requirements per 40 CFR 30.52 to
   ensure that all reporting requirements are met. Please see Attachment C, Accounting Procedures for
   Federal Awards. These procedures document AMSA’s responsibility to file the Federal Cash
   Transactions report (SF-272) within 15 calendar days following the end of each reporting period. The
   procedures also require AMSA to file the final Financial Status Report (SF 269) no later than 90 days
   after the end of the budget period. AMSA has and will continue to submit all financial reports on time
   and in accordance with EPA regulations and the terms and conditions of the award.

9. Reporting Requirements Not Met – Lack of Performance Reports: For cooperative agreements
   X827577-01, X828302-01, and X829595-01, the recipient did not comply with all reporting
   requirements of the cooperative agreements.

   AMSA communicated consistently with the EPA project officers on these cooperative agreements
   insuring that they were, at all times, aware of the on going status of the projects. Each of the EPA
   project officers will attest (Brian Frazer, Stephen Allbee and Curt Baranowski, respectively) to the fact
   that they were in constant communication with AMSA and that they had sufficient information to make
   an assessment of AMSA’s progress in meeting the agreements’ objectives and were able to determine
   whether the unexpended funds were adequate to complete all work required under the cooperative
   agreement. Please see Attachment E, Mercury Grant Documentation (X827577-01), for a detailed
   listing of the project communications/reporting that occurred for cooperative agreement X827577-01.
   Please see Attachments H & I for a detailed listing of the project communications/reporting that
   occurred for cooperative agreements X828302-01 and X829595-01, respectively. AMSA has and will
   continue to submit all performance reports on time and in accordance with EPA regulations and the
   terms and conditions of the award.


   Independent Auditor’s Report – Cooperative Agreement No. X827577-01

   Note 1: We questioned unsupported contractual costs of $106,349 because the recipient did not
   procure the contractual services in accordance with procurement standards defined in 40 CFR
   30.43; 40 CFR 30.45; and 40 CFR 30.46 (see Report of Non-Compliance).

   This question is addressed under #6 “Improper Procurement Practices” (see page 3). For cooperative
   agreement X827577-01, AMSA procured contractual services competitively in accordance with the
   requirements of 40 CFR 30.43 and 40 CFR 30.46. Also, AMSA performed cost or price analyses for
   the procurement of contractual services as required per 40 CRF 30.45. See Attachment E, Mercury
   Grant Documentation (X827577-01), for a detailed listing of the procurement procedures followed. As
   a result, the $106,349 should not be listed under “Questioned Outlays” and the OIG should not
   recommend that EPA recover these costs since we have demonstrated that they were properly incurred.




                                                  27
Independent Auditor’s Report – Cooperative Agreement No. X829595-01

Note 1: We questioned personnel costs of $34,136. The recipient’s financial management and
labor distribution systems were inadequate (see Report of Non-Compliance) to account for labor
costs in accordance with Federal regulations.

This question is addressed under #1 “Inadequate Labor Distribution System” (see page 1). In January
2003, AMSA established a new process that requires all employees to complete a personnel activity
report/timesheet twice a month (the timesheet period coincides with AMSA’s pay periods). The
timesheet reflects the actual (after-the-fact) accounting of each employee’s total activity for each pay
period. Timesheets are signed consistent with the requirements of Circular A-122 and also account for
total hours worked and leave taken. A copy of AMSA’s timesheet is attached (see Attachment A, AMSA
Personnel Activity Report). In February 2004, AMSA began separating out personnel costs in the
general ledger by program (Grants, Technical Action Fund, etc.).

For cooperative agreement X829595-01, AMSA tracked employee time allocated to this cooperative
agreement for fiscal year 2002. Employees tracked their time on calendars which were collected and
recorded in a spreadsheet which was used to calculate the amount to be charged to the EPA. AMSA has
an accurate listing of employees hours for 2002 to support the amount charged ($34,136) to the EPA.
AMSA has taken the employee calendars and transferred the data to AMSA timesheets (copies of the
timesheets supporting the $34,136 were sent to Stephanie Oglesby via fedex to arrive on 6/10/04, see
hardcopy Attachment 2, AMSA 2002 Timesheets). As a result, the $34,136 should not be listed under
the “Questioned Outlays” and EPA OIG should not recommend that EPA recover these costs since
AMSA has demonstrated compliance with Federal regulations.

Note 2: We questioned $4,219 in supply costs as unallowable. The recipient’s reported outlays
included and $899 transaction that was not supported or recorded in the general ledger. In
addition, the recipient’s reported outlays included a $3,320 transaction that was claimed twice in
error.

AMSA does have support for the $4,219 of supply costs listed as “unallowable”. The $899 transaction
is for an invoice that was paid to Guernsey Office Products for the purchase of 33 boxes of padded
envelopes which were used for the mailing of the VSAT ™ software developed under cooperative
agreement X829595-01. AMSA has a copy of this invoice which was paid on 2/12/03 (a copy of this
invoice was sent to Stephanie Oglesby via fedex to arrive on 6/10/04, see hardcopy Attachment 3);
however, this transaction was incorrectly recorded in the general ledger to the “general” supplies
account, rather than to the VSAT ™ cooperative agreement. This error has been corrected in the general
ledger.

AMSA did request reimbursement for a $3,320 transaction twice in error on 4/23/03 (request #46). The
transaction was for the reproduction of VSAT ™ software purchased from Triple Disc. AMSA was
aware of this error and it was corrected when the $3,320 was subtracted out of the amount requested on
10/17/03 (request #47). A copy of request #47 with supporting backup was sent to Stephanie Oglesby
via fedex to arrive on 6/10/04, see hardcopy Attachment 4. Therefore, AMSA does not owe EPA for
this amount since the funds have already been returned to EPA. As a result, the $4,219 of supply costs




                                               28
should not be listed under “Questioned Outlays” and the OIG should not recommend that EPA recover
these costs.

Note 3: We questioned unallowable contractual costs of $681,413. As discussed in the Report of
Non-Compliance, the recipient did not comply with the requirements of 40 CFR 30.43; 40 CFR
30.45; and 40 CFR 30.46 in procuring contractual services.

This question is addressed under #6 “Improper Procurement Practices” (see page 4). For cooperative
agreement X829595-01, AMSA awarded the contract on a sole-source basis. AMSA provided EPA
with a sole source justification document (this document was given to Stephanie Oglesby by Paula
Dannenfeldt during the OIG audit) explaining in detail why the contract was not competitively bid.
AMSA did perform cost or price analyses for the procurement of contractual services as required per 40
CRF 30.45 at that time; however, this information was not documented in the justification. AMSA has
since updated this sole-source justification document to include information on cost-price analysis (see
Attachment F, Sole Source Justification for PA Consulting). As a result, the $681,413 of contractual
costs should not be listed under “Questioned Outlays” and the OIG should not recommend that EPA
recover these costs since we have demonstrated that they were properly incurred.

Note 4: We questioned $1,693 of other costs as unallowable. The recipient’s reported outlays
included four postage transactions that totaled $1,693, yet they were not supported or recorded in
the general ledger.

AMSA does have support for the other costs totaling $1,693. These transactions are for postage charges
for VSAT CD mailings. The amounts were calculated based on postage logs kept by AMSA which
detail these costs. The information from the postage logs are compiled monthly and the amounts are
given to accounting to record the charges. The below information supports the questioned postage costs:

7/25/02 – 276 CDs at $1.29 each = $356.04
8/2/02 – Outreach announcing VSAT software availability to public utilities = $1,153.26
8/6/02 – Outreach announcing VSAT software availability to public utilities = $102.49
8/9/02 – 63 CDs at $1.29 each = $81.27
TOTAL = $1693.06

AMSA incorrectly recorded these postage costs in the general ledger to the “general” postage account,
rather than to the VSAT ™ cooperative agreement X829595-01. This error has been corrected in the
general ledger. As a result, the $1,693 of other costs should not be listed under “Questioned Outlays”
and the OIG should not recommend that EPA recover these costs since AMSA has demonstrated that
they are allowable costs.

Note 6: EPA overpaid the cooperative agreement by $22,771. The overpayment represents the
recipient’s share of the reported costs. The cooperative agreement specified that the recipient’s
match was 3 percent of allowable project costs. The recipient did not provide us with any
documentation to demonstrate that it met the required cost share under the agreement. Further,
the recipient claimed cumulative project costs of $759,033 in its Federal Cash Transactions Report
dated August 11, 2003, and EPA reimbursed the recipient for the entire $759,033. Consequently,
EPA overpaid the agreement by $22,771 (759,033 x 3%), and we have questioned the costs.



                                               29
AMSA met the 3% matching requirement on cooperative agreement X-829595-01 through volunteer
services. These volunteers provided a high level of in-kind service by attending meetings, participating
in conference calls and/or reviewing and commenting on key documents related to the project. At a
conservatively averaged hourly rate of $85/hour (inclusive of benefits, but no other overhead), in-kind
services are valued at $46,240. Detailed information documenting the in-kind services is included in
Attachment J, In-Kind Volunteer Services for X829595-01. Volunteer time was tracked and recorded in
a spreadsheet which was used to calculate the amount to be allocated to the EPA. All future volunteer
time used for matching will be tracked on AMSA’s timesheet. AMSA has an accurate listing of
volunteer hours to support the full amount of the required match ($35,717).

AMSA incorrectly completed the Federal Cash Transactions Report dated August 11, 2003, and did not
include the match amount of $46,240 on this report in error. AMSA will correct this error and send a
revised Federal Cash Transactions report with the report that is due on July 15, 2004. As a result, the
$22,771 was not overpaid by EPA and should not be listed under the “Questioned Outlays”. EPA OIG
should not recommend that these costs be recovered since AMSA has demonstrated compliance with
Federal regulations.




                                               30
                                                                              Appendix C


                                   Distribution

EPA Headquarters

      Director, Grants Administration Division (3903R)
        (responsible for report distribution to recipient)
      Director, Office of Grants and Debarment (3901R)
      Comptroller (2731A)
      Agency Followup Official (the CFO) (2710A)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Associate Administrator for Public Affairs (1101A)
      Audit Followup Coordinator (GAD)
      Deputy Assistant Administrator for Air and Radiation (6101A)


EPA Office of Inspector General

      Inspector General (2410)




                                           31
